<html>
<title> - EFFECTIVENESS OF COUNTERDRUG TECHNOLOGY COORDINATION AT ONDCP</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
     EFFECTIVENESS OF COUNTERDRUG TECHNOLOGY COORDINATION AT ONDCP
=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
              INTERNATIONAL AFFAIRS, AND CRIMINAL JUSTICE

                                 of the

                        COMMITTEE ON GOVERNMENT
                          REFORM AND OVERSIGHT
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 25, 1997

                               __________

                           Serial No. 105-65

                               __________

Printed for the use of the Committee on Government Reform and Oversight










                       U. S. GOVERNMENT PRINTING OFFICE
45-479                         WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001















              COMMITTEE ON GOVERNMENT REFORM AND OVERSIGHT

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
J. DENNIS HASTERT, Illinois          TOM LANTOS, California
CONSTANCE A. MORELLA, Maryland       ROBERT E. WISE, Jr., West Virginia
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
STEVEN SCHIFF, New Mexico            EDOLPHUS TOWNS, New York
CHRISTOPHER COX, California          PAUL E. KANJORSKI, Pennsylvania
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             CAROLYN B. MALONEY, New York
STEPHEN HORN, California             THOMAS M. BARRETT, Wisconsin
JOHN L. MICA, Florida                ELEANOR HOLMES NORTON, Washington, 
THOMAS M. DAVIS, Virginia                DC
DAVID M. McINTOSH, Indiana           CHAKA FATTAH, Pennsylvania
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
JOE SCARBOROUGH, Florida             DENNIS J. KUCINICH, Ohio
JOHN B. SHADEGG, Arizona             ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           DANNY K. DAVIS, Illinois
MARSHALL ``MARK'' SANFORD, South     JOHN F. TIERNEY, Massachusetts
    Carolina                         JIM TURNER, Texas
JOHN E. SUNUNU, New Hampshire        THOMAS H. ALLEN, Maine
PETE SESSIONS, Texas                 HAROLD E. FORD, Jr., Tennessee
MICHAEL PAPPAS, New Jersey                       ------
VINCE SNOWBARGER, Kansas             BERNARD SANDERS, Vermont 
BOB BARR, Georgia                        (Independent)
ROB PORTMAN, Ohio
                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
         William Moschella, Deputy Counsel and Parliamentarian
                       Judith McCoy, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, International Affairs, and Criminal 
                                Justice

                      J. DENNIS HASTERT, Chairman
MARK E. SOUDER, Indiana              THOMAS M. BARRETT, Wisconsin
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
STEVEN SCHIFF, New Mexico            ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         GARY A. CONDIT, California
JOHN M. McHUGH, New York             ROD R. BLAGOJEVICH, Illinois
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
JOHN B. SHADEGG, Arizona             ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           JIM TURNER, Texas
BOB BARR, Georgia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Robert Charles, Staff Director and Chief Counsel
                          Ianthe Saylor, Clerk
                    Michael Yeager, Minority Counsel



















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 25, 1997....................................     1
Statement of:
    Brandenstein, Albert E., Chief Scientist, Counterdrug 
      Technology Assessment Center, Office of National Drug 
      Control Policy; Ray Mintz, Director, Applied Technology 
      Division, U.S. Customs Service; Lennard J. Wolfson, 
      Director, Demand Reduction Systems, DOD Drug Enforcement 
      Policy and Support, Office of the Secretary of Defense; and 
      David Cooper, Associate Director, National Security and 
      International Affairs Division, General Accounting Office..     2
Letters, statements, etc., submitted for the record by:
    Brandenstein, Albert E., Chief Scientist, Counterdrug 
      Technology Assessment Center, Office of National Drug 
      Control Policy, prepared statement of......................     6
    Cooper, David, Associate Director, National Security and 
      International Affairs Division, General Accounting Office, 
      prepared statement of......................................    37
    Mintz, Ray, Director, Applied Technology Division, U.S. 
      Customs Service, prepared statement of.....................    23
    Wolfson, Lennard J., Director, Demand Reduction Systems, DOD 
      Drug Enforcement Policy and Support, Office of the 
      Secretary of Defense, prepared statement of................    31





















     EFFECTIVENESS OF COUNTERDRUG TECHNOLOGY COORDINATION AT ONDCP

                              ----------                              


                        WEDNESDAY, JUNE 25, 1997

                  House of Representatives,
  Subcommittee on National Security, International 
                     Affairs, and Criminal Justice,
              Committee on Government Reform and Oversight,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:03 p.m., in 
room 2154, Rayburn House Office Building, Hon. J. Dennis 
Hastert (chairman of the subcommittee) presiding.
    Present: Representatives Hastert, Mica, Shadegg, Barr, and 
Barrett.
    Staff present: Robert Charles, staff director and chief 
counsel; Ianthe Saylor, clerk; Chris Marston, legislative 
assistant; Michael Yeager, minority counsel; and Ellen Rayner, 
minority chief clerk.
    Mr. Hastert. The Subcommittee on National Security, 
International Affairs, and Criminal Justice will come to order.
    Today, this subcommittee meets to review the effectiveness 
of counterdrug technology coordination at the Counterdrug 
Technology Assessment Center, CTAC, within the Office of 
National Drug Control Policy, the Drug Czar's technology shop. 
This hearing is part of our continuing look at the need for 
reauthorization of ONDCP.
    As many of you know, ONDCP's current authorization expires 
at the end of this fiscal year. CTAC is a small but 
theoretically important part of ONDCP, since it was tasked by 
Congress with coordinating the Nation's research and 
development counterdrug technology development effort.
    At present, CTAC is supposed to coordinate the antidrug 
research and development efforts of 21 Federal agencies. CTAC's 
role also, theoretically, includes preventing redundance in 
funding within the counterdrug technology community and, most 
importantly, recommending to the relevant agencies ways to plug 
any hole in the antidrug capabilities of law enforcement 
agencies.
    Today, the lessons we learn about coordination at CTAC may 
lead to insights about the overall coordination mission of 
ONDCP, something, in fact, that we are very, very interested in 
and want to be able to emphasize that when doing our 
reauthorization.
    Today's hearing also highlights the importance of advanced 
technology in our Nation's drug war. The specific technologies 
we will examine are drug detection technologies. They play a 
vital role in the production of our Nation's 301 ports of 
entry, each controlled by the Customs Service. Of special 
importance are ports of entry on our southwest border, where 
last year 300 tons of cocaine, 150 tons of methamphetamine, and 
15 tons of heroin entered the United States from Mexico.
    The emerging technologies we will review today are capable 
of some amazing feats. Using the entire suite of technologies, 
from drug-sniffing canines to advanced x rays and particle 
detectors, our border agents are increasingly able to detect 
drugs in containers, trucks, car paneling, and dozens of other 
hiding places formerly unreachable by detection equipment. Our 
mission, if we are finally to turn the corner and win this war, 
is to do better.
    What this hearing is about today is basically finding the 
most cost-effective solutions to stopping drugs from crossing 
our border and then moving those solutions to the front of the 
line and implementing them effectively to get results.
    I would turn--when he comes in a minute--to our ranking 
member from Wisconsin, Mr. Barrett, and would recognize anybody 
else on the panel if they have any opening statements. We will 
let everybody put their opening statement into the record.
    At this time, I would like to introduce our witnesses. 
First, we have Albert Brandenstein, chief scientist at the 
Counterdrug Technology Assessment Center, at the Office of 
National Drug Control Policy. Second, we have Ray Mintz, 
Director of the Applied Technology Division of the U.S. Customs 
Service. And next we have Lennard Wolfson, Director of Demand 
Reduction Systems, in the Department of Defense Drug 
Enforcement Policy and Support Division. And finally, David 
Cooper, Associate Director of the National Security and 
International Affairs Division of the General Accounting 
Office.
    I would like to welcome our distinguished panel today. And, 
gentlemen, in accordance with House rules, we must swear you 
in, and please stand and raise your right hands.
    [Witnesses sworn.].
    Mr. Hastert. Let the record show that the witnesses 
answered in the affirmative.
    And, Dr. Brandenstein, please proceed with your statement.

    STATEMENTS OF ALBERT E. BRANDENSTEIN, CHIEF SCIENTIST, 
 COUNTERDRUG TECHNOLOGY ASSESSMENT CENTER, OFFICE OF NATIONAL 
 DRUG CONTROL POLICY; RAY MINTZ, DIRECTOR, APPLIED TECHNOLOGY 
 DIVISION, U.S. CUSTOMS SERVICE; LENNARD J. WOLFSON, DIRECTOR, 
   DEMAND REDUCTION SYSTEMS, DOD DRUG ENFORCEMENT POLICY AND 
SUPPORT, OFFICE OF THE SECRETARY OF DEFENSE; AND DAVID COOPER, 
ASSOCIATE DIRECTOR, NATIONAL SECURITY AND INTERNATIONAL AFFAIRS 
              DIVISION, GENERAL ACCOUNTING OFFICE

    Mr. Brandenstein. Thank you.
    Chairman Hastert, other members of the subcommittee, my 
name is Al Brandenstein. I am the Director of the Counterdrug 
Technology Assessment Center and chief scientist of the Office 
of National Drug Control Policy. I am a career professional who 
began my involvement with counterdrug technology as an office 
director at the Advanced Research Projects Agency prior to 
moving over to head the Counterdrug Technology Assessment 
Center when it was created in 1991.
    I want to begin by thanking you for the opportunity to 
testify on behalf of counterdrug coordination and the 
effectiveness of the Office of National Drug Control Policy in 
carrying out this role.
    I have a formal statement that I request be submitted for 
the record in its entirety.
    Mr. Hastert. Without objection, so ordered.
    Mr. Brandenstein. I will briefly summarize my submitted 
testimony and limit my remarks to narcotics detection 
technology.
    My organization has the responsibility, within ONDCP for 
the National Counterdrug Research and Development Program, 
which supports the five goals of the National Drug Control 
Strategy. And you can see those goals are listed on the easel 
to the left, to your right. The topic for discussion today: 
Narcotics detection technology supports national goals 2 and 4.
    CTAC was authorized under the Counternarcotics Technology 
Act of 1990 as the central counterdrug enforcement, research, 
and development organization of the U.S. Government. As 
delineated in the statute, CTAC's mission is to identify, 
define, and prioritize short, medium, and long-term scientific 
and technological needs of Federal, State, and local drug 
enforcement agencies, to oversee and coordinate drug technology 
initiatives with Federal civilian and military departments, and 
restructure a national counterdrug enforcement research and 
development program.
    In 1993, the statute was amended to expand CTAC's 
responsibilities to include technology for addiction and 
rehabilitation research.
    CTAC has sponsored efforts in a broad range of counterdrug 
technology to meet a broad range of counterdrug technology 
requirements in the areas of data fusion and secure law 
enforcement networking, nonintrusive inspection, surveillance 
and tracking, testing and evaluation, and medical research.
    Nonintrusive inspection technology and narcotics detection 
technology are important areas for technology initiatives, and 
we have a central role in support and coordination and 
oversight of these activities. We have developed a balanced R&D 
program spanning many areas of R&D and technology. Our 
Director, General McCaffrey, is solidly behind our efforts.
    Mr. Chairman, last year, the ONDCP Director challenged the 
Federal counterdrug research and development community to 
formulate a comprehensive, proactive, 10-year counterdrug 
technology development plan. In response to this challenge, 
CTAC, working with the Science and Technology Committee--and I 
will speak to more of that in a moment--has undertaken a 
complete review of the National Counterdrug Research and 
Development Program.
    For the first time, a 10-year technology development plan 
is being prepared to ensure that the latest advances in medical 
research, drug detection, communications, surveillance, command 
control, and information systems are exhaustively exploited to 
support the goals of the 1997 National Drug Control Strategy. 
The objective of this planning effort is to formulate a 
comprehensive 10-year counterdrug technology plan with a 5-year 
budget which supports the implementation and execution of the 
National Drug Control Strategy.
    Mr. Chairman, to know where we want to go in the future, we 
must know something about what we have done so far. This chart 
puts in perspective the past 5 years. During the years 1993 to 
1997, CTAC has had an oversight and coordination role of a 
Federal agency counterdrug law enforcement budget totaling 
around $390.6 million. The Department of Defense and CTAC, as 
you can see, comprised the largest share of this spending, some 
74 percent.
    Now let me shift emphasis to the major oversight and 
coordination role of CTAC and narcotics detection technology. 
CTAC coordinates the R&D activities with major drug control 
agencies and oversees technology development and application 
through three distinct mechanisms: The Science and Technology 
Committee, the counterdrug research and development blueprint, 
and updates which we submit to the Congress and an outreach 
program. I will concentrate on the CTAC leadership of the S&T 
Committee.
    The S&T Committee, which I chair, is used to develop the 
scientific and technological needs of 21 agencies and 
facilitate oversight and coordination through highly focused 
technology working groups. Individual working groups have been 
established to focus on specific areas.
    For example, CTAC assigned the Contraband Detection Working 
Group responsibility for coordinating requirements and projects 
for narcotics detection technology. This group is chaired by 
the U.S. Customs Service, and it has representatives from DOD, 
Coast Guard, DEA, Federal Bureau of Investigation, INS, and the 
FAA.
    We work closely with the DOD and the Customs Service, the 
two leading agencies responsible for using and developing 
narcotics detection technology. Both of these organizations 
have entered into a formal MOU, delineating the basic 
development of all types of narcotics detection technologies. 
CTAC oversees, develops, and supports the test and evaluation 
program to assess the performance of these technologies which 
have been developed from mostly the DOD program, as well as the 
test of off-the-shelf devices.
    Now I will take a moment to explain the different types of 
narcotics detection technology being developed and how I 
envision employing this technology. An overall nonintrusive 
inspection system consists of a mix of subsystems, broken down 
into automated targeting systems, using computers to prescreen 
shipments for suspicious trends, physics-based systems, which 
are generally large scale, fixed-site systems, shown on the 
left of the chart, to detect illicit substances, using x rays, 
gamma rays, nuclear magnetic resonance, neutrons, microwaves, 
acoustic technology systems, which, available today, find large 
quantities, 50 kilograms or more, of drugs hidden within a 
conveyance, container, or cargo, and allow this to be done 
without physically opening the container or shipment.
    The systems available today detect density anomalies in the 
shipment rather than the substance themselves. Systems still in 
test, such as pulsed fast neutron analysis, will actually 
discern the contents. Man-portable, often hand-held systems, 
shown on the right side of the chart, employ immunochemical 
assays, electrochemical biosensors, and acoustic wave 
biosensors, as well as mass spectrometry, ion mobility, gas 
chromatography, optical spectroscopy, total carbon vapor and 
preconcentrators, to identify particular quantities down to 1 
nanogram or less.
    To use such a system, an operator must wipe or vacuum a 
surface, clothing, packages, et cetera, to obtain a sample to 
analyze for the presence of drugs. These systems are all small 
in physical size and generally require that the container or 
the device be opened, something be opened for examination.
    CTAC supports the law enforcement community directly by 
developing technology prototypes and by developing standard 
test protocols to replicate a realistic operational environment 
in which to test these narcotics detection technologies. This 
program, the Narcotics Detection Technology Assessment Test 
Series, was created by CTAC in 1992 and has been used to test 
many of these devices in laboratory and operational 
environments.
    The chart shows where we did some of these tests. On the 
left, you see portable and hand-held particle and vapor 
detection devices, tests which were conducted in Miami, while 
the right side shows a cabinet-level x-ray test performed at 
Argonne National Laboratory. Since 1992, more than 20 of the 
tests have been performed at a range of places, from Puerto 
Rico to Otay Mesa, CA; Houston, TX; several tests in Miami; the 
one shown on the left, JFK International Airport; as far north 
as Canada and even in the prisons of Alabama.
    Mr. Chairman, that concludes my opening statement, and I 
will be happy, further on, to answer any questions you may have 
or the other members of the subcommittee may have.
    Thank you very much.
    [The prepared statement of Mr. Brandenstein follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Thank you.
    At this time I would like to welcome the ranking minority 
member, Mr. Tom Barrett from Wisconsin, who has an opening 
statement.
    Please feel welcome.
    Mr. Barrett. Thank you, Mr. Chairman, and I would like to 
welcome our witnesses here today as well.
    The development and coordination of drug detection 
technology is vitally important in our fight against illegal 
drugs. One only has to look at the sheer volume of commercial 
and tourist traffic entering our country to appreciate the 
challenge. Every year, the Customs Service and other Federal 
agencies deal with the entry of 400 million passengers and 
pedestrians, 10 million cargo containers, 125 million cars and 
trucks, 600,000 commercial and private aircraft, and 270,000 
watercraft. Even if the speed of inspection were not a factor--
and it most certainly is--we don't have the manpower or the 
resources to manually inspect each truck, each ship, and each 
airline plane entering the country. In reality, less than 5 
percent of cargo containers get even a cursory inspection for 
illicit drugs.
    We have to do better than that, and that is why technology 
development is so important. The Office of National Drug 
Control Policy, Department of Defense, and Custom Service are 
on the cutting edge of nonintrusive detection technology. By 
nonintrusive, we are talking about tools that allow inspectors 
at ports of entry to locate drugs without spending countless 
hours opening and manually inspecting vehicles and containers.
    Some of these tools, like the advanced automated target 
systems, are under development and don't actually scan for 
drugs. They are sophisticated computers which analyze shipping 
documents and law enforcement data bases to pick and choose 
which carriers are the ones most likely to be smuggling drugs. 
Other tools use x rays, gamma rays, and other means to spot 
anomalies inside vehicles or cargo containers where drugs could 
be hidden. Others use chemical and biological methods to detect 
trace amounts of the controlled substance from vapor or 
residue.
    Each of these technologies has advantages and 
disadvantages. Some are cheaper than others. Some are more 
mobile, more adaptive, and more readily integrated into 
existing systems. It is important to learn the costs and 
benefits of each of these technologies, the new ones over the 
horizon, and the challenges of coordinating the efforts of 
multiple Federal agencies.
    It is also important to spend some time to discuss a drug 
detection tool which is decidedly low tech but which has 
demonstrated time and time again to be cheap, reliable, and 
effective. It walks on four legs, has a wet nose, and is 
responsible for more drug busts than any piece of high-
technology hardware. I am talking, of course, about drug-
sniffing dogs, which are already an important part of our 
detection arsenal. I would be interested to know how they 
complement or even outperform their high-tech partners.
    Thank you.
    Mr. Hastert. I thank the gentleman from Wisconsin.
    At this time, Mr. Mintz.
    Mr. Mintz. Mr. Chairman, members of the subcommittee, thank 
you for the opportunity to participate in today's hearing on 
the effectiveness of counterdrug technology coordination at the 
Office of National Drug Control Policy. I particularly 
appreciate this opportunity because the words ``counterdrug 
technology and coordination'' define the focus of most of my 
27-year career with the Customs Service.
    Since 1975, I have enjoyed the challenge and the fun of 
leading the Customs programs to develop our enforcement 
technologies, from aerostats to x-ray systems, and I am 
presently the senior Customs official responsible for new 
counterdrug technology.
    While developing technologies for Customs, I was also very 
involved in coordinating my activities with those of other law 
enforcement agencies. I helped to form and then became the 
associate chairman of the Drug Science and Technology Special 
Committee, established in 1988, under the National Drug Policy 
Board, and chaired by the Deputy Assistant Secretary of Defense 
for Drug Policy and Enforcement. Later, I also helped write the 
charter for the ONDCP Science and Technology Committee and did 
then oversee the transition of the special committee into the 
ONDCP structure. Since that time, I have been the senior 
Customs representative on the ONDCP Science and Technology 
Committee.
    The U.S. Customs Service is this Nation's principal 
narcotics interdiction border agency. We have a vital role in 
the National Drug Control Strategy, especially goal 4, to 
shield America's borders from the drug threat. We also have a 
responsibility to maintain strong enforcement activities 
without adversely affecting the flow of legitimate commerce.
    For fiscal year 1997, we estimate this flow of commerce to 
include 451 million people, 125 million vehicles, and millions 
of tons of cargo. Under these conditions, effective technology 
is essential. It is for this reason that the Customs Service 
has become the world leader in the development and use of 
narcotics detection technologies. Hundreds of pieces of 
detection equipment, dogs and a variety of automated systems 
are used every day by Customs inspectors as a routine part of 
their enforcement activities. Almost all of these technologies 
are products of Customs' own development programs. And I hope 
that you and the committee members will have the opportunity to 
see them in use along our borders.
    As indicated by the amount of commerce entering the United 
States, drug smugglers literally have millions of choices for 
hiding their goods. Fortunately, the Customs Service is being 
helped by the efforts of the Department of Defense to develop 
large-scale systems for the inspection of trucks, containers, 
and cargo. With the support of the Defense Counterdrug 
Technology Development Program, we are identifying critical new 
technologies for our major ports. In my view, this program is 
giving the Customs Service a dollar's value for every dollar 
spent.
    However, despite the success of our combined national 
efforts to develop narcotics detection technologies, there are 
many challenges ahead. Drug smugglers react quickly and 
creatively to successful enforcement methods. There are still 
modes of entry into the United States for which there are few 
technologies available to help our inspectors. Even if these 
modes are not employed now, they can become major smuggling 
problems in the future.
    In brief, although we are closing the gaps in technology's 
ability to meet operational requirements, we still have much to 
accomplish. As I indicated earlier, national and international 
interagency coordination has always been a key element of 
Customs' technology development programs. Cooperation and 
coordination with agencies, such as DOD, DEA, INS, Coast Guard, 
FBI, FAA, and Canada Customs, have been hallmarks of our 
narcotics detection efforts.
    More recently, we are working with the FAA, Energy, and 
other organizations to coordinate the development of 
technologies to detect drugs, explosives, weapons, and 
terrorist materials. Our coordination with the ONDCP 
Counterdrug Technology Assessment Center has been consistent 
with this practice. We have worked within CTAC's process to 
keep them informed of our technology needs, knowledgeable of 
the work we are doing, and aware of our desires and concerns 
regarding the direction of various technology programs.
    We also have been active leaders in many CTAC efforts, 
including the current definition of the 10-year counterdrug 
technology strategy. I expect that the preparation of this 
strategy will further harmonize our efforts and interagency 
technology coordination.
    Mr. Chairman, this concludes my oral statement. You have my 
written statement, which I would like to submit for the record. 
I would be pleased to answer any questions you may have.
    Thank you.
    Mr. Hastert. Without objection, your written testimony will 
be entered into the record. So ordered.
    [The prepared statement of Mr. Mintz follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Hastert. At this time, I would like to introduce Mr. 
Wolfson. Please proceed.
    Mr. Wolfson. Mr. Chairman, members of the committee, it is 
a pleasure to meet with you today to discuss an important 
national program that can make a real difference in stopping 
the flow of illegal drugs into the United States. Specifically, 
I will address the Department of Defense efforts to develop 
narcotics detection technology for use by Customs and also 
ONDCP's involvement in support of that effort.
    In response to section 1205, National Defense Authorization 
Act, of fiscal year 1990, Defense focused its counterdrug R&D 
efforts on rapidly developing technology to detect drugs being 
smuggled into the United States, secreted inside commercial 
shipping containers and in other land transport vehicles. 
Implementing this congressional direction, the Department 
structured a broad-scope program to rapidly investigate in 
parallel practical technology approaches. The objective was to 
develop prototype inspection systems that could be demonstrated 
in operational environments against realistic targets.
    The Department also established an immediate and continuing 
relationship with Customs, the operational user of these 
prospective nonintrusive inspection systems. Such interfaces 
were at the operational level, the technology specialist level, 
and also included a formal Memorandum of Agreement between the 
Commissioner of Customs and the Office of the Secretary of 
Defense detailing how this program was to be implemented.
    Over the past 5 years, the joint Defense and Customs effort 
has been very fruitful. Currently, Customs has available the 
technical and operational information needed to commercially 
procure an effective initial operational inspection capability. 
In addition, the final stages of development are now under way 
to develop a next generation of inspection systems; that is, 
mobile and relocatable systems.
    Throughout this joint effort, Defense provided development 
and testing funding and technical program management, while 
Customs participated in the selection of the technologies to be 
pursued and provided operational personnel to support 
operational and technical testing, including stream-of-commerce 
testing.
    During the development period, the Counterdrug Technology 
Assessment Center, CTAC, of ONDCP was involved in an oversight 
role and was kept abreast of progress, technical 
accomplishments, and major program decisions.
    Overall, CTAC has provided a very valuable forum, 
facilitating the interagency exchange of information, on 
ongoing and planned counterdrug technology programs, thereby 
eliminating duplication and developing partnerships among the 
different agencies. In addition, CTAC is uniquely positioned to 
compile summary documents detailing all counterdrug R&D 
programs and all counterdrug operational needs.
    Focusing back on cargo container inspection systems, from a 
national perspective, there are many major issues involved in 
implementing the widespread use of technology solutions at 
ports of entry. One major hurdle is the very substantial 
infrastructure and operation and maintenance cost for cargo 
container inspection.
    Placing this in context, as you are aware, there are over 
300 ports of entry, and these large inspection systems can cost 
between $1 million and $15 million apiece.
    To assist in high-level concept assessments, CTAC pursued 
several efforts to provide alternative views on technology 
fielding options. Defense's position has continued to be that 
of the technology developer, our objective being to fund the 
development of technology solutions that were considered by 
Customs to be operationally suitable for their use. In this 
regard, we ensured that our development efforts were in 
lockstep with Customs and endeavored not to pursue the extended 
development of technology options that Customs did not find 
suitable to transition to operational use.
    In summary, we focused on rapidly developing operational 
systems that Customs was interested in deploying on the U.S. 
southwest border and at other ports of entry. This approach has 
paid dividends. The fixed-site x ray that was tested at Otay 
Mesa port of entry in San Diego, transitioned to operational 
use by Customs almost immediately after the development program 
was completed and is now a continuing valuable inspection 
asset.
    In addition, the first of several next generation 
relocatable mobile inspection systems has been tested and is 
also now operational by Customs on the southwest border. These 
mobile systems will offer a flexibility that is needed, given 
the changeable drug smuggling threat.
    In conclusion, the Department of Defense has responded to 
congressional guidance to rapidly develop inspection systems 
that Customs can effectively use at border ports of entry. The 
technology development effort has been accomplished with a very 
close and effective relationship with Customs, and key 
developmental products have transitioned to operational use 
almost immediately after prototype testing.
    As with all concurrent broad-scope development efforts, 
some technologies investigated were considered but then 
rejected. Real progress has been made, the technology and 
inspection systems already developed, and those under 
development will make a dramatic difference in our national 
capability to detect illegal drugs smuggled in vehicles and 
containers. In addition, CTAC's involvement has been very 
beneficial and has provided a valuable alternative view and 
assessment of deployment options.
    Mr. Chairman, this concludes my opening statement. You have 
my full testimony. I would like that entered into the record. 
Thank you very much.
    Mr. Hastert. Without objection, your full opening statement 
will be entered into the record.
    [The prepared statement of Mr. Wolfson follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. Mr. Cooper, you may proceed.
    Mr. Cooper. Mr. Chairman and members of the subcommittee, 
it is indeed a pleasure to be here this afternoon to discuss 
with you the Federal agencies' efforts to develop the important 
narcotics detection technology programs this country needs.
    If there is no objection, I would like my full statement 
entered into the record and I will summarize.
    Mr. Hastert. Without objection, so ordered.
    Mr. Cooper. My testimony today is going to focus on three 
things: The responsibility of the key Federal agencies involved 
in developing detection technologies, the differing views that 
we found among those agencies about which technologies should 
be developed and deployed, and opportunities to strengthen the 
national technology efforts.
    You have already heard from the representatives of the 
three agencies today about their roles. I will just save time 
by adding that we found that OMB has also, in recent years, 
started to play an increasingly active role in reviewing agency 
budget submissions and suggesting how those funds should be 
spent on different technologies. And I can get into that a 
little bit later on.
    Let me move on to the differing views about different 
technologies. Over the last 6 years, we found Federal agencies 
spent about $100 million to develop technologies for detecting 
narcotics. However, the agencies have not always agreed on the 
most appropriate technologies to be used at the U.S. ports of 
entry. For example, in 1990, Congress tasked the Department of 
Defense, in coordination with Customs, to develop technologies 
for inspecting cargo containers. Cargo containers were 
recognized as a major threat for importing illegal drugs 
through U.S. ports of entry.
    In response to that congressional direction, DOD developed 
and tested, at a cost of about $15 million, a high-energy 
system at Tacoma for detecting narcotics in those containers. 
DOD and CTAC viewed that system as a key step toward developing 
an effective, nonintrusive method for inspecting containers. 
However, the system was not deployed because Customs did not 
believe it was safe, affordable, or operationally suitable for 
their purposes.
    Based on that Tacoma experience, Customs and DOD modified 
their Memorandum of Understanding to ensure that DOD would 
develop only those technologies that Customs would deploy. 
Based on that understanding, DOD also discontinued work on a 
pulsed fast neutron analysis project, after spending another 
$15 million.
    Like the Tacoma high energy system, Customs expressed 
concerns about the safety, affordability, and operational 
suitability of that system. Despite efforts over the last 6 or 
7 years, including that expenditure of $30 million, commercial 
seaports, and particularly the containerized cargo coming 
through those seaports, still remains as the greatest unsolved 
detection requirement according to Customs.
    We also found that ONDCP and Customs differ in their views 
about what detection technologies are needed along the 
southwest border. ONDCP has recommended that Customs accelerate 
efforts to develop and acquire an automated targeting system 
that would identify high-risk cargo for inspection. Customs 
agrees about the need for such a targeting system and has begun 
testing targeting systems, prototype systems at selected sites.
    Customs further believes that additional low energy x-ray 
systems, like that used out of Otay Mesa, should be acquired 
for inspecting empty trucks crossing the U.S. Border. However, 
ONDCP is also developing a technology that ONDCP believes may 
be as effective as the systems that Customs is acquiring and 
will cost about one-fifth of the estimated $3 million cost of 
that system.
    While development of the current generation of narcotics 
detection technology is near completion, ONDCP, in a September 
1996 study that was mandated by Congress, concluded Customs 
needed the detailed methodology for determining which 
technologies should be acquired. ONDCP, recognizing that there 
are variations among the different ports of entry, recommended 
that Customs adopt a methodology that would provide a port-by-
port analysis of the different technologies needed at each 
port. Customs disagreed with ONDCP's port-by-port methodology 
because it felt the methodology did not realistically consider 
the personnel and funding constraints that Customs faces.
    We believe there is an opportunity to strengthen Federal 
efforts to develop detection technologies. In August of last 
year, the Director of ONDCP challenged other Federal agencies 
to work with ONDCP to prepare a comprehensive, proactive, 10-
year counter-drug technology development strategy. That 
strategy would be augmented with a 5-year budget projection. We 
understand that ONDCP is working with other Federal agencies to 
meet the Director's challenge. Such a plan, we believe, should 
provide decisionmakers with a road map to guide Federal efforts 
to develop nonintrusive inspection technologies and upgrade 
existing systems.
    We generally support ONDCP's efforts to prepare a long-
range technology plan. It is consistent with ONDCP's broader 
efforts to develop a long-range plan for achieving the goals 
and objectives of the U.S. drug control policy. To be 
effective, however, we believe the technology plan should 
resolve the differing views between ONDCP and Customs on needed 
technologies.
    At a minimum, we believe the 10-year technology plan should 
address the use of high-energy x-ray systems for detecting 
narcotics contained in fully loaded containers, the possible 
use of explosives detection technologies for detecting drugs in 
containers coming through our seaports, the use of an automated 
targeting system for identifying high-risk cargo, the best 
technologies for detecting drugs in empty trucks, and 
methodologies for transitioning technologies from development 
to deployment.
    That concludes my statement, Mr. Chairman. I will be glad 
to answer any questions you or other Members might have.
    [The prepared statement of Mr. Cooper follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Hastert. I thank the gentleman.
    Mr. Brandenstein, you have been in your organization--your 
organization has been in existence at the offset of ONDCP since 
1991.
    Mr. Brandenstein. We were established in--I actually came 
in November 1991, and ONDCP was started in 1988.
    Mr. Hastert. That is correct. So you have a history there.
    Mr. Brandenstein. I have a history because those prior 
years I was at ARPA working on the same areas.
    Mr. Hastert. In the 10-year plan, what are you doing, or 
what have you done? I mean, you talk about a 10-year task. I 
want to move to the prior history. What have you done, and what 
are you doing, to actually demonstrate coordination? I mean, 
you have the DEA and Customs Service, FBI, and Agriculture, and 
DOD, and the Coast Guard, and INS, all on the borders, all 
trying to fight the drug war one way or another, and with a lot 
of technology out there. What have you done to coordinate those 
organizations up to this point?
    Mr. Brandenstein. The major forum to ensure the 
coordination, a formalized forum, is the Science and Technology 
Committee, which predates me, as Mr. Mintz said, in some other 
forms, and I became the chairman when I arrived in 1991. And 
through that, we meet approximately quarterly. In preparation 
of the 10-year plan and the 5-year strategy, we have been 
meeting almost every 2 weeks. We have a series of----
    Mr. Hastert. You missed my question. I said you have been 
there since 1991, 6 years. What have you done to coordinate up 
to this point? I am not talking about a 10-year plan. A 10-year 
plan didn't happen until now.
    Mr. Brandenstein. You want to talk about the past?
    Mr. Hastert. That is what I said when I asked the question.
    Mr. Brandenstein. Yes, sir. We have developed technology 
initiatives--we have--in conjunction with those organizations 
that you listed, we collect their S&T requirements, and we 
publish them within the blueprint so that the entire group 
understands what--we review those requirements, the entire 
group understands what the requirements are. It is collectively 
decided, so that they meet their needs, and then we review the 
projects that the agencies are planning to do, come up with a 
program which essentially removes duplication of effort because 
there are very limited amounts of funds. And publish again, in 
the appendix of our blueprint, the actual projects that are 
being conducted by all the Federal agencies.
    Mr. Hastert. Well, one of the things, our goal here is to 
work with ONDCP, make sure we are effective, and make sure the 
dollars we spend are spent wisely. What I am just really asking 
you for is one or two success stories of what you have done?
    Mr. Brandenstein. There are several examples.
    Mr. Hastert. Let's hear them.
    Mr. Brandenstein. One of the examples, from a very tiny 
example, in terms of what it looks like, is on this table. With 
the FBI, and through the Contraband Detection Working Group and 
a couple other working groups, we jointly developed a crack 
cocaine detection system comprised of some fluids. It replaced 
existing technology, it costs about $12.50 for a test, and in 
the first year of its use, we seized about $7 million worth of 
drugs with this type of technology.
    Another example is the development of VACIS, the 
development of one of the contraband detection systems that was 
shown on one of the tables, on one of the charts. That was a 
joint effort. It is now in the current tests at Nogales. 
Eventually, some number of these will probably be entering the 
Customs Service inventory to augment the Otay Mesa type 
systems.
    In the area of medical research, we developed for the 
Addiction Research Center in Baltimore, the only Federal center 
dedicated totally to the medical research on drugs of 
addiction. We built a center, a PET scanning center, and a 
radiochemistry laboratory.
    Mr. Hastert. PET scanning center?
    Mr. Brandenstein. Positron emission tomography. It is a 
brain-scanning system so that you can look at the effects of 
various therapeutic drugs on an addict's brain. This was our 
single biggest investment of the funds available to CTAC, and 
that was an investment of about between $6 and $7 million 
overall. For the prior 7 years before we did this, the 
Addiction Research Center, which is part of NIDA, had been 
requesting a new PET scanning center. We did it. It was solely 
on CTAC funding. It was dedicated in December of this past 
year. It now allows them to have an intermediate research 
program, directed by Dr. Leshner, which has greatly increased 
even in the short time it has been there.
    Mr. Hastert. I am going to reclaim my time. I appreciate 
that.
    But there are agencies there. We have spent $100 million, 
about $15 million a year, and we also have the Tacoma issue out 
there--the $30 million mistake, that is pretty expensive, and I 
really haven't seen evidence of how you coordinate. What we 
want to make sure is, that those dollars are spent.
    And I am going to come back on the second round. My time is 
up. I would hand this over to the gentleman from Wisconsin, Mr. 
Barrett.
    Mr. Barrett. Mr. Cooper, maybe you can shed light on this. 
You made reference to the Tacoma situation. The chairman 
referred to it as a $30 million mistake. Would you concur with 
that?
    Mr. Cooper. Let me clarify for the record. The Tacoma 
technology development was $15 million, and then there was a 
second project, the Pulse Fast Neutron Analysis, which was 
another $15 million. So there were really two projects there. 
Nonetheless, in the case of the Tacoma technology, DOD moved 
smartly. After the congressional direction in 1990, they 
developed a technology that proved that it could detect 
narcotics in containers. I think it had like a 90 percent 
success rate.
    But in 1994, after DOD had developed that system and was 
ready to have it deployed, there was dialog between DOD and the 
Customs Service, and Customs said, that is good, but that is a 
high energy system, and it is not operationally suitable for 
Customs purposes.
    And I think that situation illustrates the need for the 
agencies to work very closely together, and, in fact, they have 
entered into that Memorandum of Understanding after that Tacoma 
experience to make sure that doesn't happen again. And I think 
that is what we are all after, to make sure whatever moneys we 
invest in technology, that there is a good chance for those 
technologies to be applied.
    Mr. Barrett. You mentioned the DOD. I am sorry, I wasn't in 
Congress in 1990. Maybe you can tell me what Congress's role 
was here.
    Mr. Cooper. I think it was a result of some of the 
appropriation language that directed DOD to--because of their 
expertise in developing technologies for weapon systems and 
other kinds of things, got DOD involved in the drug war, if you 
will, to develop the kinds of detection technologies that would 
be useful in inspecting cargoes and containers coming across 
the borders.
    Mr. Barrett. At that time, was it known that the technology 
would be turned over to Customs?
    Mr. Cooper. That was the purpose for DOD, to help Customs 
to develop those kind of technologies. As I said in my 
statement, the threat that that direction focused on was the 
containers coming through, and there are millions of containers 
every year that come through.
    Mr. Barrett. In your GAO report, your analysis, did you 
place blame on one party or the other, or who was asleep at the 
switch here?
    Mr. Cooper. I think there was probably enough blame to go 
around for everybody. I am not sure it was any particular 
agency. I think that particular example illustrates what the 
theme of this hearing is all about, and that is to make sure 
there is good coordination among all the Federal entities. This 
happens to be one involving Customs and DOD, and, as I said, in 
the 10-year plan, if we can get that 10-year plan to where we 
want to get it to and identify all the different efforts that 
are being undertaken by Federal agencies and to make sure those 
efforts are integrated and everybody has a commitment to those 
efforts, and we have funding identified and timeframes for 
getting those technologies deployed, I think that would provide 
a road map for everyone, including the congressional 
decisionmakers, to see that effort and to have that insight 
into that effort.
    Mr. Barrett. Mr. Mintz, from your perspective, what has 
been done to ensure that that will not be repeated?
    Mr. Mintz. Well, I think many things, but let me use the 
example of Tacoma and the MOU that has been mentioned.
    The MOU that Mr. Cooper describes is actually the second 
MOU we had. When that project was started, the parties involved 
were myself for Customs and I think Dr. Brandenstein at that 
time for Defense, and the MOU dealt with who would be 
responsible for what; when that system went to Tacoma, who was 
going to be responsible for maintenance; who was going to be 
responsible for providing test samples, et cetera.
    As we got into the system and found that, yes, it worked 
technically--and I would say in that respect, it was not a 
mistake, we did learn a lot technically about it, about that 
kind of high-energy system. But as we learned, it was too 
expensive at that time and still unsafe for the examination of 
foodstuffs.
    We decided at that point between Mr. Wolfson's office, Mr. 
Pennella, and myself, that we needed a second MOU. This MOU was 
much simpler, and I think this is going to be the answer to 
your question. This MOU essentially said that the Department of 
Defense was going to do its best efforts to develop 
technologies that the Customs Service would employ, and we, the 
Customs Service, our responsibility was to participate in those 
programs and ensure that if the technology was developed 
according to requirements, we would do everything in our power 
to have that technology implemented. That is the focus of what 
we are doing now, and I think that is the answer to your 
question, ``What are we doing now?'' We are working together 
much more closely, realizing it is not just the technology that 
is the focus of our efforts, but rather on making that 
technology useful. And so we have a much better appreciation 
for that now, and I think that is what is helping us as we go 
through the current programs.
    Mr. Barrett. Dr. Brandenstein, I understand you were 
involved in this as well. What is your analysis?
    Mr. Brandenstein. Yes, I was involved from the very outset 
because when I was at ARPA, well, I was the executive agent for 
these programs. I also believe that the knowledge gained from 
Tacoma was extremely valuable, I think extremely valuable to 
the Customs Service.
    The Customs Service has a tremendous set of requirements 
that they have to meet when they install an operational system. 
The knowledge gained was at the technical level and at the 
level of how a system like this works. When they have to make a 
consideration of an operational deployment, they have to 
consider safety of the individual, they have to consider costs 
and physical space, and in that context, they selected another 
approach.
    But the knowledge gained, we know what 8-MEV systems will 
do. We have test data now at 8-MEV, which is the Tacoma system, 
and we have, because of the operational employment and tests 
that were done prior to the operational employment, test 
information at 450 KEV, which is the Otay Mesa system.
    The Otay Mesa system has less penetrability than a high-
energy x-ray system will have. But we also have data that 
indicates that at 2-MEV, which is considerably higher than 450, 
there is not as much penetrability difference between a 2-MEV 
system and an 8-MEV system.
    Mr. Barrett. Thank you. I see the chairman is going to move 
on, so I thank you for your answer.
    Mr. Hastert. Just a comment. Mr. Cooper, do you agree with 
the statement that was just made?
    Mr. Cooper. Pardon me?
    Mr. Hastert. Do you agree with the gentleman's statement 
that was just made?
    Mr. Cooper. That they learned a lot from that and that 2-
MEV has more penetrability? Yes, I would agree they learned a 
lot from the Tacoma experience, and I think the answers that 
have been given here indicate that when the technology 
developer doesn't have all the information that they need about 
the operational constraints--and that is what they talked 
about, the safety constraints.
    Mr. Hastert. Do you agree it was worth $30 million to find 
that out?
    Mr. Cooper. It is an expensive lesson to learn.
    Mr. Hastert. The gentleman from Georgia.
    Mr. Barr. Thank you, Mr. Chairman.
    Mr. Brandenstein, I have a habit of reading things which 
sometimes people don't like. And I have a couple documents 
here. Maybe you can help me clear something up. One document is 
the enabling legislation, section 1008(c)(2), and then your 
testimony. On pages 9 and 10, you talk about CTAC developing a 
transportable gamma-ray system to inspect tanker trucks. That 
is on page 9. CTAC also recently completing a pilot test on 
drug-testing devices with Alabama, you reference on page 10. 
And then further down on page 10, improvement of an automated 
targeting capability for identifying suspicious luggage and 
containers with hidden drugs.
    I don't have any problems at all with those sorts of 
things. What I am curious about is where the legal authority is 
for you all to engage in those activities, given the fact that 
the enabling legislation explicitly provides that the authority 
of CTAC does not extend to the award of contracts management of 
individual projects or other operational activities.
    And then second, some of the materials that you submitted 
show that ONDCP, CTAC, has spent, over the last 5 years, 1993 
through 1997, somewhat over $74.2 million on R&D.
    Now the two figures don't quite add up. One is $73.7, and 
one is $74.2. But let's not quibble about hundreds of thousands 
of dollars; let's say approximately $74 million. Here again, 
what has that $74 million gone for if you cannot use it for the 
award of contracts management of individual projects or other 
operational activities?
    I have some confusion here. Something just isn't matching 
up.
    Mr. Brandenstein. I think I can help remove the confusion.
    Mr. Barr. Thank you.
    Mr. Brandenstein. In the original legislation for CTAC, the 
authorization, which was in 1990, followed in 1990--fiscal year 
1991--I arrived in November 1991, and fiscal year 1992, the 
Congress appropriated a budget for CTAC to do startup projects, 
to help to remove duplication of effort, to do community-wide 
support projects that have projects that have the greatest use 
for all the 21 Federal agencies.
    Now, none of them helps everybody, but the intent on our 
sponsoring of projects is to help the largest community.
    Now, the other point that you raised is the point in the 
legislation which says we are not program managers, I believe 
that is what you are referring to, and that is quite true. I 
run CTAC's budget and coordinate the activity of what we are 
going to do. Actual projects sponsored using the CTAC funds 
with the S&T Committee and with other users. The funds are 
transferred to an agent. We are not program managers, we are 
program sponsors, but we do not do the daily program execution, 
we don't do the monitoring, we don't award the contracts. The 
technical, everyday oversight management is done, in fact, if 
you look at the back of one of our blueprints in which all the 
projects are listed, including the CTAC projects, you see the 
lead agency. In our case, CTAC is the sponsor, but the lead 
agency could be Customs Service--it is everyone except the 
Department of Defense, because they are the only organization 
that really has never had a project in which we sponsored it 
and used the appropriated moneys for that.
    Does that answer partially your question?
    Mr. Barr. So what you are saying then is, this $74 million 
I see here, which represents CTAC R&D spending from 1993 to 
1997, are moneys that were transferred to other agencies.
    Mr. Brandenstein. In some cases directly to other agencies, 
which represented at least one of them at this table. In other 
cases, they would go to our agent, and when we are doing a 
project to help a State and local organization, if it was a 
tactical technology project, it was most frequently the leader 
of the project, the technical leader--which I provided the 
oversight and coordination; I take a very strong role in 
examining the technology itself. But the day-to-day management, 
fiscal--creating the contract, managing every day, with one of 
the Federal agencies. When we do it for State and local 
agencies, most are tactical technology type projects. The FBI 
and DEA, you will notice, if you look at our blueprint, are the 
lead organizations that are overseeing this at the Federal 
level, and our agents are Fort Huachuca in Arizona and the 
Tennessee Valley Authority. Those are the two main agents that 
we use.
    So the funds would go to that agent. They have the 
responsibility for structure, issuing Broad Agency Announcement 
or some other type of solicitation to determine what we are 
going to get in order to respond to what we want to do.
    Mr. Barr. When you do that--and I am still a little 
confused here, because in your written testimony you say CTAC 
has recently completed a pilot test that also--that CTAC has 
developed a transportable gamma-ray system to inspect tanker 
trucks.
    I am still curious, and maybe something here is quite 
impressive that you can magically do this without extending--
without awarding contracts, without managing any individual 
projects or engaging in any operational activities. And if you 
do it all by taking all of this money and transferring it to 
the other agencies that are actually doing these enumerated 
things which you all can't do, is each and every one of those 
submitted to the Congress pursuant to your reprogramming or 
transfer of funds authority?
    Mr. Brandenstein. We were asked to provide in the 
legislation periodic reports, and I think if you read the 
text--well, it might have been in conference, in conference 
language. But it is repeated many times in conference reports 
from year to year.
    Mr. Barr. I focus on statutory language, and it says here 
that you do have authority to submit reprogramming or transfer 
requests. And it seems to me that in light of the constrictions 
in you all's enabling legislation according to which you are 
expressly prohibited from doing these things, if you then have 
other agencies do it, it would have to require reprogramming 
requests.
    Mr. Brandenstein. Every year, around August, the S&T 
Committee meets, usually, sometime in August, and we derive a 
projected program for the next year. We still don't have a 
budget. And when the budget comes, when we then put together a 
program plan of what the projects will be--and I am 
concentrating on the CTAC projects.
    Mr. Hastert. The gentleman's time has expired.
    I would like to followup. Did you say one of the agencies 
you deal with is Tennessee Valley Authority? Just yes or no.
    Mr. Brandenstein. Yes, and it is an agent.
    Mr. Hastert. An agent.
    Mr. Brandenstein. Yes, an agent, a technical and 
contracting agent.
    Mr. Hastert. So you are actually prohibited from letting 
contracts?
    Mr. Brandenstein. Yes, sir.
    Mr. Hastert. What you are doing is circumventing what the 
law is, and you go to TVA to let the contracts go out. Is that 
what you are doing? I am just asking the question.
    Mr. Brandenstein. I need to have an organization.
    Mr. Hastert. Can you tell me, yes or no? Are you 
circumventing?
    Mr. Brandenstein. No. I don't believe so. You are telling 
me; I am trying to tell you.
    Mr. Hastert. What does the TVA have to do with ONDCP or the 
drug issues? Anything?
    Mr. Brandenstein. When we were appropriated a budget, we 
have to have a way to generate that and either directly 
transfer it to one of the agencies or transfer it to an agency 
that can award a contract, and that is what we are doing.
    Mr. Hastert. So you are going to the TVA, who has actually 
nothing to do with this stuff, and you are letting them award 
the contracts because you don't have the power to do the 
contracts.
    Mr. Brandenstein. That is true.
    Mr. Hastert. Then there is a problem, isn't there?
    Mr. Brandenstein. I can't do it, not only because of the 
fact you could--if you wanted to, you could change the 
regulation and say, Brandenstein, or whoever, you do this 
contracting directly from the Office of National Drug Control 
Policy. I--our staff personally couldn't handle that. We 
don't--we just can't do it.
    Mr. Hastert. We will come back to that. Thank you.
    The gentleman from Arizona.
    Mr. Shadegg. Thank you, Mr. Chairman.
    My colleague from Georgia has requested a brief yielding. I 
will yield to him for a moment.
    Mr. Barr. Thank you.
    I have also reviewed today the administration's proposed 
reauthorization, and they are not proposing any change in the 
authorities or the specific prohibitions that I have just 
stated, so I think that the problem we have identified here--
and I think we are seeing a circumvention here--is not 
addressed in the administration's proposal.
    Did you recommend that that be addressed in the 
reauthorization?
    Mr. Brandenstein. Well, as I said in the very opening 
statement, I am not trying to----
    Mr. Barr. I am just wondering if you asked for that to be 
changed.
    Mr. Brandenstein. Did I ask internally to ONDCP? I asked 
that it not be changed, because it would require that we create 
a much larger organization, and to explain what--why I don't 
think it needs to be changed, this may appear to be a strange 
way, but I came from ARPA, and for 25 years--Advanced Research 
Projects Agency, within the Department of Defense.
    Mr. Shadegg. Reclaiming my time, if you could be brief, I 
do have some of my own questions.
    Mr. Brandenstein. For 25 years, ARPA operated with a budget 
of hundreds of millions of dollars, exactly the way I am 
telling you we operate. They were smart people who put together 
a program, and the money was funded through another, not 
through ARPA.
    Mr. Shadegg. Just to stay on that topic, can you tell me 
why--candidly, why you picked TVA and not some other 
organization?
    Mr. Brandenstein. Yes, I can. The reason we picked TVA is 
because TVA can also award CRADA's and the Fort Huachuca-
Arizona U.S. Army contracting office cannot.
    What does that mean? It means if you would like to do 
medical research projects, and you occasionally want to have 
a--the kind of award that TVA can make.
    Mr. Shadegg. Turning to page 9 of your testimony, you 
referenced that the system which you say CTAC developed, 
specifically, a transportable gamma-ray system to inspect 
tanker trucks, had recently been tested in Nogales, AZ, by 
Customs.
    As I read the GAO report--and maybe there is confusion in 
my mind as to whether we are talking about the Tacoma project 
or whether we are talking about this transportable unit. But as 
I read the GAO report, the GAO report seems to say to me that 
Customs did not want what you were seeking to develop. Is that 
correct, with respect to the Tacoma project or both the Tacoma 
project and the one tested in Nogales?
    Mr. Brandenstein. The Tacoma project was not a CTAC 
project, it was started before CTAC was even created. The 
Nogales project, we have been coordinating and talking about 
the development. The lead agency for the VACIS project, which 
is the one you are talking about, is the Customs Service. They 
provide assistance all the time. The tests that are done in 
Nogales are now being evaluated to see whether there should be 
some changes in the system.
    Mr. Shadegg. What were the results of those tests--if I 
might? Did they show the systems to be successful?
    Mr. Brandenstein. I think they show the system to be 
successful, and--but it is a prototype. Everything requires 
some change from prototype to become an operational system, 
especially under the constraints of an organization like the 
Customs Service must operate.
    Mr. Shadegg. I find it curious, because last year 
Congressman Souder--who sits on this committee and I think will 
be here later--and I held a field hearing of this committee in 
Phoenix, AZ, which is in my district, went into the issue of 
the drug problem in America, and spent the balance of the day 
touring the border. We flew by helicopter, went to the border, 
saw the machine, a transportable machine to do this detection, 
and got a lengthy briefing about why the machine was not 
operational and couldn't be used and was shut down and of--at 
least as of that day and for some time before that and, as far 
as I knew at that time, sometime ahead of that, not going to be 
of any value to them, because it was a combination of 
nonoperable and protests over whether or not it was safe.
    Do you know the outcome of those tests and whether they 
ever ultimately did do operational tests with it?
    Mr. Mintz. May I answer that question, sir?
    Mr. Shadegg. Certainly.
    Mr. Mintz. I know that what you are describing did happen. 
I think part of the problem is, you were speaking to Customs 
inspectors at the time and they have a very short attention and 
patience span.
    That gamma technology is very useful to us. The system that 
you saw was developed as a prototype. In fact, Customs 
ourselves, we did the proof of concept and asked CTAC to fund 
it, which they did. That was a prototype system meant to 
operate maybe 200 times under controlled conditions. We then 
put it out into the field where it was subjected to a rigorous 
operational environment. It broke down then; it has broken down 
a few times since. It is currently in El Paso, rather than 
Nogales, and the darn thing stays up and keeps running with 
Band-Aids and baling wire.
    So it is a good system as a prototype, for the purpose, 
which was primarily to look at tank trucks and thick-walled 
tankers that the x-ray systems won't penetrate.
    Mr. Shadegg. My time is about to expire. Let me go back to 
Mr. Brandenstein.
    Your statement says you developed this. I take it when you 
use the word ``developed,'' you mean you did what Mr. Hastert 
brought out in the testimony, and that is, you kind of went 
through TVA or some other Federal Government agency to do this 
work, which is not in, as Congressman Barr tried to bring out, 
your specific authority.
    Mr. Brandenstein. Yes, we did.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Hastert. I thank the gentleman from Arizona. I have a 
question. I just want to go back to this Tacoma project.
    Now I think I heard the testimony, Mr. Mintz--and I think 
you said it--that the problem was, it radiated food, which it 
was not intended to do. And I also understand that if there is 
an illegal immigrant in a container, you radiate that person as 
well, and that would go against the 1983 law, is that correct?
    Mr. Mintz. I am not familiar with the laws on radiating 
people, but I think you are correct. Currently, the U.S. Food 
and Drug Administration allows us to only go to about 300,000 
KVA for the radiation of foodstuffs. So if we radiated with 
anything higher, we would have to then dispose of the 
foodstuffs, and obviously that is not practical.
    Mr. Hastert. And probably what would happen, a lot of the 
stuff that you are scanning is foodstuffs.
    Mr. Mintz. Yes, sir.
    Mr. Hastert. Good. Then you entered into a contract with 
DOD; is that correct?
    Mr. Mintz. A Memorandum of Understanding, yes, sir.
    Mr. Hastert. A Memorandum of Understanding is how you are 
going to work your way out of this problem; is that correct, in 
a sense?
    Mr. Mintz. I prefer to say how we are going to find good 
useful technologies, yes, sir.
    Mr. Hastert. Now, in a Memorandum of Understanding, was 
CTAC involved in this?
    Mr. Mintz. No, sir.
    Mr. Hastert. Now wait a minute. I am trying to put things 
together here in a logical order. CTAC was supposed to 
coordinate all these things, and especially the high-tech stuff 
we need at the border. They weren't involved in getting--
finding this problem out. As a matter of fact, if you got 
something that was used at the border that was created and OKed 
by CTAC, they actually did something we weren't supposed to do, 
take that as a role of coordination. But now you are telling me 
when you do work in coordination, between you and DOD, it was 
completely outside of the realm of what CTAC did, and that was 
their job. Is that what you are telling me?
    Mr. Mintz. Essentially, yes, sir, they were, as I am sure 
you recall, aware of what we were doing, but the MOU was 
strictly between the Commissioner of Customs and the Assistant 
Secretary of Defense.
    Mr. Hastert. Now, Mr. Brandenstein, I looked at your 
mission statement, and to simplify it, it says basically you 
are supposed to identify and define, you are supposed to 
examine, you are supposed to make priority rankings, and you 
are supposed to oversee and coordinate. I don't see anything in 
there where you are saying you are supposed to let out $74 
million worth of contracts. Can you enlighten me on that?
    Mr. Brandenstein. That is the third bullet, execute a plan 
and budget for the National Counterdrug Research Development 
Program, including the CTAC portions of it.
    In 1992, we were appropriated funds, and we jointly 
gathered together to develop a project series.
    Mr. Hastert. Well, I want to take one other step and ask 
you one other question. In the National Narcotics Leadership 
Act of 1988, it says the authority granted to the Director, 
meaning you, under this section shall not extend to the award 
of contracts, management of individual project, or other 
operational activities.
    Now this isn't a rule, this is a statute. So you are 
actually in violation of the statute, aren't you?
    Mr. Brandenstein. No, sir, we are not. I don't believe we 
are, because when the Congress appropriated the funds in 1992--
and they have appropriated funds every year since then--we had 
to have a way to derive a program jointly with others, and we 
either would have transferred the money directly to that agency 
or we would use a contracting agent. We had no other choice.
    Mr. Hastert. Can't you just direct those funds to be spent 
directly by the agency?
    Mr. Brandenstein. In some cases, we do that. In some cases, 
for example, we have projects where the source of CTAC funds 
are transferred to the DEA and also with the FBI. They have a 
program manager who does the entire technical--everyday actions 
on the program.
    Mr. Hastert. Just to back off in just a second, when we 
look at what you have expended, $74 million, and $30 million 
has been in a project that hasn't been able to be applicable at 
the border, and your job is to coordinate, and in fact the 
coordination that takes place has been through a Memorandum of 
Understanding between Customs and DOD, and you are out of the 
circle, or out of the cycle, I have a problem with that.
    Mr. Cooper, have you looked into this issue? Can you 
enlighten us a little bit here?
    Mr. Cooper. I have not been involved in looking at the 
legal basis for them to award contracts.
    Mr. Hastert. One thing you have looked at is basic overall 
efficiency of the operation. Do you want to comment on that?
    Mr. Cooper. The only thing I would say is, it is clear from 
the ONDCP Director's call in August 1996 to revitalize that S&T 
Committee. I think that is a recognition that the agencies need 
to work more closely together, and, essentially, that is the 
challenge that the ONDCP Director has put out there.
    Mr. Hastert. And the job of the CTAC then is to do that 
coordination.
    Mr. Cooper. Yes, they are involved in that.
    Mr. Hastert. And they are somewhat lacking. Do you want to 
make an estimate on that?
    Mr. Cooper. I think there is a recognition there is a need 
for CTAC to do a better job, yes.
    Mr. Hastert. Thank you.
    I yield to the gentleman from Wisconsin.
    Mr. Barrett. Mr. Cooper, I think I need your help here a 
little bit. There obviously is some criticism here of Dr. 
Brandenstein's operation, and it seems to be coming down two 
roads. One is whether he has the authority to do what he has, 
and I understand you don't know enough or didn't do enough 
analysis of that. The other--and I think this is coming from 
the chairman's last question--is whether, even assuming they do 
have the authority, whether they have used the funds that have 
been appropriated to them effectively. And I would ask you to 
comment on that, and I know you may have touched on that, but 
if you could comment on that again.
    Mr. Cooper. The work that we did showed, I think, between 
fiscal year 1991 and 1996, CTAC ONDCP had about $8.4 million 
for detection technologies, and that is what the focus of our 
review was. It is an average of about $1.7 million. And I think 
some of that resulted in the tanker gamma-ray system that was 
looked at and talked about previously.
    Again, where we are coming from is, with this new call for 
this 10-year integrated coherent strategy, what we are talking 
about is seeing all the Federal efforts reflected in that plan 
with priorities established, whether it is a CTAC priority or a 
Customs priority or whoever, with the appropriate moneys 
identified for developing those technologies.
    And to give you an example, one of the most critical needs 
today still remains a detection technology for fully loaded 
containers. Now if this plan were put together, I think the 
plan needs to identify where the Federal investment is going to 
be, who is going to be responsible for that investment, what 
the timeframe is for that investment, so that decisionmakers in 
ONDCP and all the Federal agencies and in the Congress can have 
that road map to see where Federal efforts are going and then--
--
    Mr. Barrett. And should the overseer of that be ONDCP?
    Mr. Cooper. I think that is the charge ONDCP has, yes, in 
their coordinating role, and I think that is what the Director 
is trying to get to, is a Federal-wide coordinated plan. And in 
August of last year, in challenging the Federal agencies to 
come up with that plan, he also said that he needed high-level 
commitment within the agencies.
    Mr. Barrett. Does it concern you and had you heard before 
that the Memorandum of Understanding entered into between 
Customs and DOD did not in any way, from my understanding, 
include ONDCP.
    Mr. Cooper. I knew it did not include ONDCP.
    Mr. Barrett. Do you think that is consistent with its 
purported role as the overseer of this effort?
    Mr. Cooper. I think ONDCP was aware of some of the 
problems. In fact, if you go back to I think the 1995 Blueprint 
Update, and you look at that, that update at that time, that 
blueprint was talking about deploying that technology that was 
being developed at Tacoma. I think everybody was going down the 
road at that point to develop, you know, that technology.
    Mr. Barrett. Now, I am talking about the Memoranda of 
Understanding that came subsequent to Takoma. My understanding 
from Mr. Mintz's statement was that that was a Memoranda of 
Understanding entered into between Customs and Defense.
    Mr. Cooper. That's right.
    Mr. Barrett. And ONDCP was not involved with that at all. 
That strikes me as inconsistent with its role or assignment to 
be coordinating these things.
    Mr. Cooper. I think it is inconsistent. And I think maybe 
you want to ask the other witnesses. But I think DOD and 
Customs probably didn't see a need for ONDCP to be a part of 
that.
    Mr. Barrett. Mr. Wolfson.
    Mr. Wolfson. Well, I don't think it's necessarily 
inconsistent. Basically that MOA, Memoranda of Agreement, was 
really for the execution of a series of programs, many of which 
were directed by congressional report language. Specifically, 
ONDCP was aware of the content from a policy role. They 
understood fully what was in the MOA. And it was my 
recollection they thought it was the way to go and had no 
objection to the content.
    Mr. Barrett. Let's back up just a little bit. You said much 
of it was in congressional report language. Can you be more 
specific?
    Mr. Wolfson. Well, backing up a little bit, and I don't 
have the specific documents here to reference, but many of the 
technologies that we pursued including, I think, very 
explicitly the PFNA, a high energy, and these low energy x 
rays, did appear in report language suggesting or providing 
guidance that these were things that the Department of Defense 
should look into, should in essence fund to support this 
container inspection effort.
    Likewise, many of the items included in the MOA, 
relocatable systems, were also surely in report language that 
this was part and parcel to what we were to spend R&D dollars 
on to pursue in support of Customs.
    Mr. Barrett. So in response to that report language, you 
would start developing this technology.
    Mr. Wolfson. That was very early-on the case, and we 
followed that lead.
    Mr. Barrett. And at what point would you bring Customs in 
the loop for that?
    Mr. Wolfson. Customs was involved almost immediately. Once 
we had this MOA, the one I'm referencing now I think was 1995, 
we even more formalized it, whereby, Customs actually sits on 
the selection panel where we actually decide Customs part--
actually participates in the decision of what will even be 
funded.
    What we were looking for was to get a clear commitment from 
Customs that they would be interested in procuring the results 
of the R&D.
    Mr. Barrett. And if they were not?
    Mr. Wolfson. Then we felt, and I think they feel also, that 
unless it's--that R&D isn't worth pursuing I think is the 
clearance.
    Mr. Barrett. That it is worth pursuing?
    Mr. Wolfson. Is not.
    Mr. Barrett. Is not. But if you have the congressional 
direction to continue pursuing it, did you continue to pursue 
it?
    Mr. Wolfson. The congressional direction was OK. 
Congressional direction for the relocatable systems was 
generic. We are pursuing relocatable mobile systems that 
satisfy the requirement that Customs is seriously interested in 
procuring them.
    Mr. Barrett. So for the State you are doing that?
    Mr. Wolfson. Yes. Now prior to that, we had the direction, 
guidance, I think is a better term, to pursue PFNA, one of the 
systems that we spoke of earlier, that we cost--that we put in 
something on the order of $15 million, and also the high energy 
system. We pursued those. And as we've spoken earlier, those 
ended up, at the testing phase, resulting in a decision from 
Customs that they did not want to pursue.
    Mr. Barrett. At any point in the proceedings in the last 6 
or 7 years, did DOD say to Congress, no?
    Mr. Wolfson. We've had numerous discussions. I guess my 
comment would be other than the issues with Tacoma and PFNA, 
all the other items we're developing look like they're going to 
have great utility and would be of great operational use to 
Customs.
    Mr. Barrett. So you were happy to get direction from 
Congress?
    Mr. Wolfson. I don't know about happy. It was a lot of 
money from the Defense Department. As we spoke, we spent close 
to $100 million to support products that Defense would not be 
fielding but that Customs would be fielding.
    Mr. Barrett. OK. Thank you, Mr. Chairman.
    Mr. Mica [presiding]. Thank you. I have a couple of 
questions. First, let me ask Mr. Cooper of the General 
Accounting Office, I guess you have done some review of this 
whole area of technology and its use in detection and spotting 
drugs as they come in through the various means into the 
country. In your estimation, and I notice, too, there was a 
chart here about the R&D spending by the various agencies. We 
have got a couple of problems. One seems to be coordination of 
that activity. Another one is duplication. And then deployment 
of technology. So there are a number of problems here. It looks 
like DOD does the biggest share in dollars----
    Mr. Brandenstein. Yes.
    Mr. Mica [continuing]. Is that correct? Then we drop down 
to----
    Mr. Brandenstein. CTAC.
    Mr. Mica. CTAC, FBI, and others.
    Is there any way to first, I guess in the area of 
coordination, to better have these activities proceed in a more 
efficient manner? Is the system so legislatively separated, 
budget separated that we can't achieve any better coordination? 
At least at first level of activity, which would be I guess 
your basic R&D.
    Mr. Cooper. Let me try to answer your question. Of the $100 
million that we identified in the last 6 years that's been 
spent on detection technologies and is primarily on the 
nonintrusive technologies, you are correct. DOD is the primary 
funder of that. Some $86 million of that $100 million was 
funded by DOD. And the coordination difficulties that you speak 
of is we believe reflected in that Tacoma experience where the 
DOD went out and developed a technology and kind of late in the 
game really started getting a better understanding of what the 
users' requirements were, the user being Customs. And it became 
clear, even though that technology was a feasible technology 
for detecting the narcotics, that it had some difficulties with 
safety, with operational deployment, and that's where we think 
there's an opportunity for better coordination through the 
called for ONDCP's 10-year technology plan.
    Mr. Mica. Now, was there anyone else duplicating that R&D?
    Mr. Cooper. No.
    Mr. Mica. That was pretty much pinpointed to that one 
project.
    Mr. Cooper. Right. We did not see any duplication. We have 
not reported any duplication.
    Mr. Brandenstein. May I?
    Mr. Mica. Yes.
    Mr. Brandenstein. In the case of the PFNA, there was only 
one PFNA prototype in existence in the world. And that is the 
one that was developed within this program. And it was--that 
particular device people are looking--I think, have learned a 
considerable amount from that prototype, which we need to know, 
because it is the only type technology that will actually 
discern on a large scale system. It's extremely expensive, and 
probably unless that can be overcome, the Customs Service, in 
my view, and I don't think Ray would disagree with that, 
probably could never afford to have this. But currently, in the 
1990--I believe in the 1997 Department of Defense budget for 
the counterterrorism, they're also building another version of 
the PFNA system.
    Mr. Mica. Well, in the area of research and development of 
either technologies, has there been specific duplication? Did 
you identify, Mr. Cooper, have you seen a problem in that area 
where, because we have many agencies, is there duplication? 
What I am trying to do is go through each of these levels and 
say is there a problem. And, first, the R&D stage.
    Mr. Brandenstein. Do you want me----
    Mr. Mica. Yes.
    Mr. Brandenstein. If you are--in my view, there has been no 
unnecessary duplication in any part of the national counterdrug 
R&D program.
    Mr. Mica. Mr. Cooper.
    Mr. Cooper. We did not identify any duplication.
    Mr. Mica. OK. So the next question would be of what 
technologies are--well, maybe my question is this is--are we 
finding success out of the R&D? And is that--where are we 
finding the most success and in what projects? Doctor.
    Mr. Brandenstein. If we're concentrating on drug detection 
technology, which is the subject of this, the--I feel that the 
most--many improvements have been made in the technology that 
an individual operator will use. The hand-held devices that he 
uses are--the Customs inspectors at the various border crossing 
points. That's been some amount of money dedicated to that. And 
there I think that I--that there's been a tremendous 
improvement in that, the quality of that technology that has 
come out of this program.
    In the case of the very large scale systems, which has 
really been where most of the DOD funds have gone, they're now 
looking at, and developing, some prototypes for transportble 
and relocatable x-ray systems, which can be very effective and 
at a reasonable cost.
    Mr. Mica. So----
    Mr. Brandenstein. I think there have been limited cases. I 
cannot really find any of unnecessary duplication. There really 
has not--$100 million over a period of--since 1990 is about, 
you know, $13, $14 million a year.
    Mr. Mica. And your office is charged with the coordination 
of all of these efforts. I mean, you have had authority through 
the drug czars' office, correct?
    Mr. Brandenstein. Yes, sir.
    Mr. Mica. Well, one of my questions is it is my 
understanding that you get somewhere between $15 and $18 
million a year for coordinating that effort.
    Mr. Brandenstein. For actual execution of a program which 
fills the gaps in the technology development programs of the 
other Federal law enforcement agencies. And for assisting in 
the test and evaluation of the more successful--of the 
technologies that are coming out--the NDAT test is a continuing 
series of tests.
    If you look at the amount of money of CTAC's, out of CTAC's 
appropriation from the period of 1993 to 1997, approximately 
$10.4 million of that total has gone to support the Customs 
Service, the drug detection technologies. And of that number, 
$10.4, approximately $4 plus million has been in test and 
evaluation of the prototypes and in a replicated operational 
environment. That needs to be done. Everybody recognizes that. 
It's a broader service that we perform than strictly for the 
Customs Service, because the Customs provides--contributes to 
this. They're involved in this. Everyone is involved in this. 
And it's a service that no single organization owns in terms 
of, you don't want to, you don't want to pay for test and 
evaluation of someone else's twice. That's what CTAC is 
attempting to do as a service to the community.
    Mr. Mica. Now how much--now we are talking about $15 to $18 
million a year times 5 years. We are looking at close to $100 
million.
    Mr. Brandenstein. It's $84 million, from the beginning, 
approximately.
    Mr. Mica. OK. Well, my math is fair.
    Mr. Brandenstein. We got $7\1/2\ million in 1995, I 
believe.
    Mr. Mica. But you are saying that is not all used for 
administration.
    Mr. Brandenstein. No, sir, it's not. No, it's not. It's 
used for projects which we coordinate through the S&T Committee 
on what those projects are going to be.
    Mr. Mica. And that is a most effective manner--Mr. Cooper, 
is this a good assessment of a most effective manner?
    Mr. Cooper. Let me provide some clarification. When you are 
talking about the $84 million----
    Mr. Mica. Yes.
    Mr. Cooper [continuing]. For CTAC, that's for all 
technology development----
    Mr. Brandenstein. Yes.
    Mr. Cooper [continuing]. That they're trying to coordinate 
not just the nonintrusive technologies I referred to in my 
statement.
    When I'm talking about $100 million over the last 6 years, 
that's only on technologies for nonintrusive inspections like 
containers and for trucks and things like that, most of which 
the Defense Department has funded for Customs.
    Mr. Mica. What we are trying to find out is there a more 
efficient way of achieving the same objective, and do we have 
too much administrative overhead? Is there duplication events, 
or some of the duplication question? I am trying to look at the 
administration of the project.
    Mr. Brandenstein. Could I speak----
    Mr. Mica. Yes.
    Mr. Brandenstein [continuing]. About administrative 
overhead for a second?
    Mr. Mica. Go ahead.
    Mr. Brandenstein. Do you know--sir, there is one person 
that's--that I have an office--I'm the chief scientist.
    Mr. Mica. Right.
    Mr. Brandenstein. And I have two people from the Department 
of Defense who are in my office helping me. And one person from 
the U.S. Navy helping me, and a secretary.
    Mr. Mica. Right.
    Mr. Brandenstein. So that's five people.
    Now I augment that too in specialty areas to get technical 
support of people who actually know the in-depths of some 
particular technology by going out and getting consultants.
    Mr. Mica. And Mr. Cooper, your assessment, I mean you have 
reviewed the way some of the funds are expended for these 
projects. Does your assessment pretty much jibe with what I am 
hearing?
    Mr. Cooper. Well, my assessment, as I've reflected in our 
statement, is we see some opportunities for improvement. And 
that opportunity for improvement is----
    Mr. Mica. One.
    Mr. Cooper. I'm sorry?
    Mr. Mica. Two. I will give you two.
    Mr. Cooper. Right. I mean, what we're talking about is this 
10-year technology plan that ONDCP is in the process of trying 
to develop. We think that will bring together--it should bring 
together, I hope it will bring together all the Federal efforts 
that are out there in the technology area, so that you and 
other Members of Congress can have clear visibility on what 
kind of technology efforts are under way.
    Mr. Mica. Well, another major question I have is that GAO 
has recommended in several reports that a long-term commitment 
and supporting budget are essential ingredients to winning the 
drug war. As an expert in Defense acquisitions, what do you 
think a 10-year technology strategy should include to make it 
successful?
    Mr. Cooper. OK.
    Mr. Mica. And I am interested in your comments generally, 
but specifically on decision methodologies.
    Mr. Cooper. OK. What I would see as essential ingredients 
in that 10-year plan is an integration, if you will, of a 
coherent strategy, Federal strategy for developing 
technologies, so we can see what DOD is doing to develop 
inspection technologies, what Customs is involved in, what 
their requirements are, what the funding needs are by some 5-
year period or so, and also a timetable for deploying these 
technologies so we can get these technologies fielded. I think 
if we have that road map, it will provide a model for 
accountability so that we can track and know whether we're 
achieving what that strategy is. And I--and so I think they are 
the essential ingredients for that 10-year plan.
    Mr. Mica. Dr. Brandenstein, we are all aware that a great 
deal of money has been spent on development. But that is really 
not the last technology issue. Deployment is really an even 
more expensive question.
    Mr. Brandenstein. Yes, sir.
    Mr. Mica. I know that deployment expense is one factor in 
the Customs' decision not to deploy the high energy system 
developed at Tacoma. How does the long-term technology plan in 
the 5-year budget currently being developed at the ONDCP take 
deployment expenses into account?
    Mr. Brandenstein. We're in the process of writing the plan 
right now. And some sections of the plan are almost complete. 
The emphasis will be on the R&D aspects as you would expect. 
And the emphasis following on from that when a prototype is 
developed will be that there is some acquisition plan; if the 
prototypes are successful, that there will be an attempt to 
ensure that the various end user agencies will put into their 
budgets some planning factors for the out years when it will be 
necessary for them to come to the Congress and request the 
funds to acquire these as operational systems. This has never 
been done before by the agencies other than the Department of 
Defense, which regularly does this.
    The other agencies, many of them are not familiar with this 
type of out year planning and the technology development plan, 
the 5-year budget and the 10-year strategy will definitely 
address that, because that has been a persistent problem ever 
since the creation of CTAC.
    At the very first S&T meeting that we ever had the need for 
acquisition plans came up as an issue. Everyone that was 
present was reiterating that as a problem. We have attempted in 
many ways to get agreements, good faith in many cases, have to 
be simply good faith agreements because the budget process 
within these other agencies, other than DOD, does not recognize 
in most cases a process of transitioning from R&D to system 
procurement. They don't have--the budgets are not appropriated 
in that fashion.
    Mr. Mica. Well, you have outlined some of the problems and 
some of the transitioning from a development to deployment. Is 
it Dr. Mintz? You are the Director of Applied Technology 
Division of Customs. How do you view what has just been 
described, as workable or----
    Mr. Mintz. I----
    Mr. Mica [continuing]. Practical?
    Mr. Mintz. I still have some concerns. I mean, I know that 
all of us from an interagency point of view are going to be 
working the problem as hard as we can. I guess there are two 
aspects of it because we are dealing with technologies. And 
quite honestly, if I step back in time, 10 years from today in 
the past, or even 5 years from today in the past, if I had 
tried to predict the technologies that we would be employing 
today, I think I would miss by a fairly wide mark. So I'm a 
little nervous about our ability to be specific about those 
things 5 to 10 years from now.
    The other issue is the one that was just discussed and that 
is the funding of the acquisition. Development means little 
unless the systems are bought. I can easily see $500, $600, 
maybe even a--$600 million or maybe even $1 billion worth of 
technology for Customs over the next few years, whatever they 
may be, and I really don't know how the budget process will 
accommodate that. And that really is my main concern.
    Mr. Mica. Is there any reason why agencies can't do all of 
this and plan all of this on their own? Or do they need the 
coordination of ONDCP as you have heard outlined?
    Mr. Mintz. I think it's important that we do coordinate. 
And I think CTAC and ONDCP can provide that leadership for us. 
It's important, for example, that all the plans be consistent 
and based on the same assumptions, the same threat, et cetera. 
I think what we are finding, as we've done before, that CTAC 
helps greatly in this area. Customs really depends on DEA and 
FBI to work in certain areas. It's useful for us to know what 
they're doing so that we don't have to pursue that. So I think 
that the kind of coordination that's happening now and that we 
look for in the future is the right way to do it. As I said, 
concerned about our collective abilities to come up with that 
plan that will be used in the way that we would like it to be 
used.
    Mr. Mica. Let me ask you, Dr. Mintz, another question. The 
Customs Service faces a formidable task. I was just in Miami. 
The amount of cargo--I think there is a million tons of cargo, 
container cargo now coming through Miami just at the airport. I 
don't know about the other port. It's just awesome. And we have 
a number of personnel down there. We have increased some 
personnel down there. But it is almost, I mean, an impossible 
task.
    Do you think that there is hope and that we should continue 
to pursue both the R&D and put resources, and to what extent, 
into this effort, or are we just whistling Dixie, or just it 
can't be done?
    I am one of those people, I went down there and I said, 
well, why can't we--isn't there the technology in this great 
age, in this time of doing every kind of thing that Buck Rogers 
could have ever dreamed about that we couldn't come up with 
some technology to detect drugs in these containers or in other 
cargo or passengers.
    What is your candid assessment?
    Mr. Mintz. Well, candidly, speaking for myself, although 
I've shared this opinion and others have had it in agencies 
over the years. We don't have any choice but to keep going with 
the technologies. But we are not going to win this war or cure 
this sickness with detection technologies or trying to stop 
supply. It's got to be at the other end, at the demand side. In 
the meantime, I think Customs and the other agencies have no 
choice but to keep trying to do what we're doing. It is an 
overwhelming task.
    Mr. Mica. Is there a possibility for a technological 
breakthrough here, or?
    Mr. Mintz. No.
    Mr. Mica. I mean, maybe we should be offering a reward, you 
know, here's $1 million, a firm that comes in with a technology 
that will do this the quickest. We just leave it to good, old 
fashioned ingenuity. Do we have any--I mean are there any 
creative approaches?
    Mr. Mintz. I think we have tried a lot of creative ways. 
And CTAC has sponsored technology symposiums. They've been 
holding symposiums by Customs' agencies worldwide to try to do 
this. I think part of the problem is that it is not just a 
single method, a single approach that the smuggler can use. We 
need something that works on cars, on people, on trucks for 
cocaine, for heroin, for methamphetamine, et cetera.
    So when you look at issues like cost and mobility and 
everything else, I think we've tried very hard. There may be a 
family of solutions but no single solution I think is likely to 
be found.
    Mr. Mica. Do we have programs with our institutions of 
higher learning, a substantial commitment there, folks looking 
at this?
    Mr. Brandenstein. Yes.
    Mr. Mica. We do?
    Mr. Brandenstein. Yes. The entire program consists of 
projects going on within industry, research going on within 
industry, academia, and the national laboratories, and has been 
going on--that's been happening since 1990, formally.
    Mr. Mica. I have another question, maybe. Let's see, RDO, I 
am not sure who was involved in this at DOD or Customs. Since I 
have got you all here, down in south Florida, having spent some 
time down there looking at the situation, I got involved in 
this back in the 1980's, and you know we did the--they did the 
overflight. I think we even did U-2. And then that is 
expensive. We put the aerostats up. And we put all kinds of 
folks there for detection. And every time you do something, the 
smugglers respond in some other way.
    But I was told the latest thing is these Jamaican war 
canoes that are built out of wood so they are not detectable. 
But I was told that, and now they are taking about 1,000--1 
ton, 2,000 pounds, of cocaine in the night, dropping it in the 
Bahamas in different islands, and then bringing in fast boats. 
And the fast boats are detectable in the day visually. At 
night, they aren't. But I am told that a small ring of sound 
buoys, and one of the universities that I think was down there 
looking at this said they could be quickly put out, could form 
a ring around, therefore, detection of this stuff coming in.
    Is anyone familiar with that project? Mr. Wolfson, you are 
smiling.
    Mr. Wolfson. I'm not sure I'm familiar with that project.
    Mr. Mica. How do I get a project like this done? Who do I 
see?
    Mr. Wolfson. I think there's several issues--let me just 
raise since you're raising it. One is a question of how much of 
a threat do you really have of that nature.
    Mr. Mica. Threat?
    Mr. Wolfson. Of large amounts. You're talking metric-tons 
being moved by fast boats from the Bahamas. There are fast 
boats moving large amounts, but----
    Mr. Mica. Coming in at incredible quantities. I have been 
tracking this stuff for 17 years. And as fast as we chop them 
off at one end, they find a new one. That this is their 
lightest.
    Mr. Wolfson. This is positively the case.
    Mr. Mica. So how quickly can we get them out there like 
that? No one is aware of that project.
    Mr. Wolfson. I'm aware of technology to do that.
    Mr. Mica. Sound buoy.
    Mr. Wolfson. The issue has become, with all the boats that 
are in that area, one has to look at, can I detect the boats 
I'm interested in, or do I just detect every boat that goes 
near the buoy or----
    Mr. Mica. They told me that this is primarily for the 
night, and you don't have too many people coming from the 
Bahamas at night. They can't detect them. And now they are 
putting them on fast boats. They are coming in all along the 
coast. I mean, it is not the end all answer. But for the amount 
of money that they had mentioned to me, it seems like we could 
deploy something and cut them off at another pass.
    Mr. Wolfson. There are lots of ways to address the problem, 
including airborne ways.
    Mr. Mica. All right. And you are going to be in my office 
in the next 2 weeks to make sure we discuss that and find 
another method to stay ahead of this.
    Mr. Wolfson. Truly.
    Mr. Mica. I mean, I would love to just say that we could 
educate everybody and we could convince people not to consume 
this stuff, and the demand is the problem, and it is only 
education. We held down in my district in October, a hearing, I 
think you were there. I don't think you were there. And I had 
the families of city council members--we are not talking gheto, 
we are not talking Detroit, New York, Miami, we are talking 
central Orlando, these kids that were on cocaine.
    I just had last week my ninth heroin death of a teenager I 
think in like 12 months. Cocaine is absolutely rampant; 
methamphetamine, all these other things. And then I will take 
you to the prisons and I will show you some of these dudes, and 
you can talk to them and educate them and everything you want 
about not doing dope and how it is bad for their body and their 
health and their mind and their physical being and their work 
ethic. And you could talk to one of these pictures of the 
former chairmen, and your breath will be able to warp the paint 
faster than you get results in trying to convert them. So I am 
convinced it takes a multifacetted approach.
    Mr. Wolfson. Yes, it does.
    Mr. Mica. We let down some of our guard. Whatever it takes. 
If you guys can find a breakthrough in technology, I am 
prepared to commit whatever resources we need toward that 
effort, as long as the money is spent wisely, efficiently, as 
long as the R&D is an intelligent approach, the deployment, the 
coordination. We are here of the people that are paying the 
bill, expect no less, and they are working pretty hard for the 
money they send us.
    And this isn't a Republican or Democrat issue, it is an 
issue that affects every one of our communities now. So we will 
work with you. And I am serious on that other issue of staying 
one step ahead of these folks. And I appreciate your coming. 
Let me see if the ranking member----
    Mr. Barrett. See if Mr. Souder has any questions.
    Mr. Mica. Mr. Souder. Thank you.
    Mr. Souder. I just wanted to make a few comments and 
apologize first off for not being here. I feel like I have been 
on a race track this afternoon. We have been having these 19 to 
18 votes over in the Education Committee, and bouncing between 
multiple things.
    But I strongly support the comments that Mr. Mica just made 
on the importance of the detection technologies. I have been 
down to the border a number of times, as we have been in 
Central and South America a number of times. Having this type 
of equipment is essential, just like having people who provide 
the tips are essential, the ability to have effective random 
searches are essential as well, and to find it when we have a 
decent tip.
    I wanted to react to one comment I heard in the brief 
period that I was here and that is the solution to all of this 
is reducing demand, not supply. Not suggesting that we weren't 
going to focus on the supply, but the fact is that the evidence 
in every single category that we can reduce it isn't good. In 
other words, the education programs aren't working, the 
treatment programs aren't working in data, and interdiction 
programs are having a problem. What we need to do is keep up 
the pressure on all of them. But there is no sign that the 
education and treatment is going to work any better than the 
interdiction.
    And part of our concern here today and what we are trying 
to draw out in this hearing, and I would like to followup with 
Mr. Mintz with this question, because, as one of the budget 
hawks here, I have been supportive of the funding in the drug 
area, because it is like Mr. Mica said in his district with the 
heroin deaths, in my district crack is the biggest problem. Our 
murder rate in Fort Wayne, IN, is higher this year than last 
year already, almost all drug related in one form or another. 
And it has us all troubled.
    Having worked over in the Senate side, as we put in the 
Office for Planning and a lot of these different things, the 
goal was to take all of these diverse agencies and try to 
coordinate. But if all that means is another layer of 
bureaucracy, and we aren't effective, then we need to start 
looking hard in the public pressure, given the news media 
stories that are out there right now about ineffectiveness of 
certain things anyway that is in dispute. If we are not 
effective with the dollars, then everything is going to be hit.
    And things like this question related to the Tacoma 
development where there wasn't enough coordination to make sure 
that it could be used at the end leads to some concerns on part 
of it.
    Do you believe that, and I know this is difficult given the 
nature of the panel here, but do you believe that the planning 
function is working through the CTAC, or do you believe that, 
in fact, the individual agencies now that they know the 
importance of the coordination could do it? They weren't 
before. I grant that they weren't before.
    The question is have we learned our lesson? Is the pressure 
there? Or is there useful function with that? And I know it is 
a tough political question but it is one we have to ask, 
because some of this is coming down to a question if it isn't 
done right and we see waste, then everybody loses.
    Mr. Mintz. I think that the agencies can do the 
coordination. But at the same time, I think we also need a 
focal point; not someone to do the coordination for us, but 
maybe to help guide us a little, and to be a central 
spokesperson for what the coordinated groups produce.
    Because I think the key thing is that the product should 
not be an agency product where we get one agency then battling 
with another, if you will, over different kinds of issues. But 
to have a concerted cohesive plan that's the national strategy. 
And I think that's the role that CTAC should perform. To be the 
focal point, to be the spokesperson. I think that's the key 
issue.
    I would like, if I may, just perhaps to correct an 
impression I may have left. I do not advocate by any extent 
that we should stop our efforts in interdiction in order to go 
over on the demand side. We need both clearly. We're just not 
going to do it on the supply side. We're not going to do it on 
technology alone.
    Mr. Mica, if I may, in Miami you're probably familiar with 
the issue of cut flowers. I almost cried one night years ago on 
the tarmac watching our inspectors poke holes in those flower 
boxes. We still don't have a technology solution. But by 
working with the flower importers and by working carrier 
initiatives, we've helped solve that problem. So it's not 
always a technology solution. There are other ways to get at 
the problem.
    What we're really trying to do is stop drugs. We're not 
trying to develop technology. Our focus is to stop drugs. We'll 
do it any way we can. And I think we've got to keep doing that. 
And I think CTAC can help us, and as I said, be the central 
point of reference, if you will, for the things that are going 
on in the Government.
    Mr. Souder. Let me followup with my question with Dr. 
Brandenstein; is that correct----
    Mr. Brandenstein. Yes, sir.
    Mr. Souder [continuing]. And let you comment on the 
coordination question. And let me put two specifics with it and 
then the answers if anybody wants to join in. I yield back.
    Yes, we don't have to do this all with technology, but we 
spent about $100 million in technology. And the question is 
that, have we provided anything new for detecting drugs?
    It looks a lot on the border like we are still at the drug 
dogs. And I know at the Mexican border, often, they are being 
tipped off if the dogs are there and they send a decoy in.
    We have some in the trucking industry that are doing some 
searches; some in the Coast Guard. But what type of technology 
breakthroughs are we seeing for our money? Because it is one 
thing saying yes, we may not find it. On the other hand, if we 
are spending money, hopefully we are finding something. Or is 
it just hoping to hit the big one? While having been down in 
Colombia and just met with the flower people, I realize that 
they are trying to cooperate, because they realize if they 
don't, there are not going to be flowers coming into this 
country.
    At the same time, it just seems that with all the type of 
technology around this country, that we ought to be able to 
find some things. Sometimes we feel like unless we have a tip 
you don't know where to start.
    Could you field both a little of the coordination question 
and the technology question of have we found something for this 
$100 million and where do you see this going?
    Mr. Brandenstein. For the $100 million that you mentioned, 
of which some $84 million of it was spent within the Department 
of Defense, and of which some of it was congressionally 
directed to look at--it's my opinion that there has been an 
exhaustive look in every type of phenomena that you could 
possibly consider for a piece of hardware that eventually end 
up in something either man can hold in his hand and do an 
examination with or, as it shows on the charts over there, a 
vehicle could go through and there be a major system that it is 
being used to exploit, to determine whether there's something 
in the cargo. And now they're looking at transportable versions 
of some of these systems on the left and relocatable versions.
    At the Department of Defense, the major group that has been 
funding these programs has looked at about everything that you 
could possibly consider. That plus the work--and with the total 
conjunction and coordination with us and with the Customs 
Service, Customs Service being the end user, I cannot think, 
from a physical phenomena point of view, as an engineer, of 
things that remain--that should be looked at that haven't been 
looked at. And becomes, at that time, making selections of what 
you--what optimizes the detection probability, how well it will 
actually detect a drug against a system tradeoff sort of a 
study, examination of how much it will cost, and how much space 
it's going to take up, is it safe for an inspector to use, and 
various considerations of these factors. And we're now in the 
stage that that is exactly what is happening.
    And that is what the Customs Service is doing. They're 
making decisions. And they have made some decisions. They made 
a considerable number of decisions. In the back of our most 
recent blue print is a technology development plan that the 
Customs Services had. That plan is the basis, I believe, of 
what we are going to modify, change, and put into the 10-year--
the 5-year budget plan and 10-year strategy plan. Everything 
you can think of.
    And when I started the--many of these programs that they're 
talking about actually when I was at ARPA, the origination of 
those programs were with me, because I have the person doing 
this in 1990 within the--at the Department of Defense over at 
ARPA. We had some of the best--we've had the best minds in the 
country. We've had academics spend weeks in summer study 
determining what should we look at. These programs--these ideas 
became the basis of many of the projects that were done over 
the last 5 or so years.
    We now have I think exhausted the phenomena. And you're 
into the stage of making selections based on these engineering 
and system acquisition and cost factors. And we need a mix.
    The importance of a nonintrusive inspection system, which 
is where all these drug detection technologies end up, as part 
of a system, is that as has been stated here earlier, you do 
one thing, the druggy is going to do something else. And so 
it's like any problem, that you have an interactive response, 
and they're doing everything they can to defy you, to find--to 
get their drugs through.
    You're going to need a mix, because the operational 
scenario will change from the confronting the Customs Service, 
from year to year, month to month, as soon as they determine 
what you're doing, and in one sense they will attempt to 
confound it and get around it. So you need systems that have 
flexibility. You need to be able to adjust how you do things. 
And that's what is happening.
    Mr. Souder. I have to go cast another vote. But I want to 
say again thank you for coming. This subcommittee is probably 
the--and I am on a lot of them, like six or something--probably 
the most active of the subcommittees I am with, and also a 
sense of unity on our side where we play tag team. But we talk 
more, we are more cohesive because we have a commitment to try 
to get what we need in this country, to fund it if we see the 
action. And we strongly see ourselves--unless we can find some 
breakthrough technology, we are very concerned in some of these 
areas.
    So with that I yield back and thank the gentleman.
    Mr. Mica. I thank you, Mr. Souder.
    I just have one or two concluding questions here.
    Looking through the way some of the, I guess, research 
money is spent here, and I noticed, and it may not all be 
contained in this, but at the Department of Agriculture, the 
theory of eradication, you know you look at the levels of 
stopping drugs, and of course you know you would love to stop 
it and educate and everybody would be aware of it, that they 
shouldn't use it. But the other end is where drugs are 
produced. And as I read this, we have spent about $5 million in 
the Department of Agriculture actually looking for ways to deal 
with crop eradication or doing something to destroy the 
production.
    Mr. Brandenstein. Yes.
    Mr. Mica. That is a very small amount. Is that adequate?
    Mr. Brandenstein. I think it is. The agricultural----
    Mr. Mica. Is this the total money or is it mixed into other 
things that I don't see?
    Mr. Brandenstein. If you want to help me. If you'll point 
to the page, he'll get with you.
    Mr. Mica. I am on B-4.
    Mr. Brandenstein. Yes, sir.
    Mr. Mica. In the blueprint.
    Mr. Brandenstein. Yes. I'm looking at the blueprint.
    Mr. Mica. And you have got in 1994 it says you spent $5.5, 
almost $5.6.
    Mr. Brandenstein. And each year.
    Mr. Mica. Five point three, it was actually going down in 
1995.
    Mr. Brandenstein. I think if you looked at the 1996 number, 
I think you'll find the 1996 number--we didn't have the 1996 
number at the time we did this. We have those numbers now. I 
think you'll begin the 1996 numbers actually probably even a 
little bit less.
    The USDA has been working this problem--this is only in the 
1994, 1995 number. They've been working this problem probably 
since 1989.
    Mr. Mica. But are we putting enough resources in there, in 
your estimation?
    Mr. Brandenstein. Well--see, we know how to eradicate the 
crops. The Agricultural Research Service work has lead to 
various chemicals that will allow crop eradication.
    Mr. Mica. But there is a great reluctance on the part of 
the country for that method.
    Mr. Brandenstein. Yes.
    Mr. Mica. Now there are other ways of either making the end 
product not usable or indestruction of the crop. Now we know 
cocaine or coca is produced Peru, Bolivia, and a little bit in 
Colombia. I mean, it is not like it is produced in 48 countries 
and regions and everything. That is where it is being produced 
period.
    Mr. Brandenstein. Yes, sir.
    Mr. Mica. And if you can stop it at its source or interfere 
in that production in some fashion, that is much more cost 
effective than our Customs folks----
    Mr. Brandenstein. Yes, it is.
    Mr. Mica [continuing]. Or our DOD folks or our law 
enforcement folks or any education folks, because it isn't 
going to--it isn't going to pop up anywhere else.
    Mr. Brandenstein. The----
    Mr. Mica. They produce there.
    Mr. Brandenstein. The eradication of the coca plant----
    Mr. Mica. We spent $5 million on that total.
    Mr. Brandenstein. Well, that's every year. The chemistry to 
do this is they have several different approaches. The problem 
you would have is there are some international diplomatic 
problems involved with attempting to do this. You have to get 
the cooperation of the host government because, as you said, 
we're going outside the United States to do this. And we 
certainly, diplomatically--and I'm speaking not of a technical 
person, I'm just giving you my opinion, it would be very 
difficult to get some of these arrangements in place.
    Mr. Mica. But you know I have been down there. I dealt with 
those folks in the 1980's. And there is great reluctance to 
some of the chemical spraying and----
    Mr. Brandenstein. Yes.
    Mr. Mica. But there are other methods of destroying crops.
    Mr. Brandenstein. Yes, there are.
    Mr. Mica. And I am just wondering if those are being 
adequately pursued so we can get--your job isn't to negotiate 
internationally with, you know, these folks. That is going to 
be our task. Your job is to come up with the creative ways of 
destroying this stuff----
    Mr. Brandenstein. Yes.
    Mr. Mica [continuing]. At its source and production. So I 
am wondering again if this is enough, if it is adequate. Maybe 
you should take----
    Mr. Brandenstein. I would be glad to get back to you with 
some indications from the Agriculture Research Service if they 
feel that the program that we have with them----
    Mr. Mica. I think it is worth looking at.
    Mr. Brandenstein. Yes, sir.
    Mr. Mica. Because I think if you can stop it, because the 
other one--that is, cocaine and coca. And I have been in the 
field. I helped create the Andean strategy back in the 1980's, 
and helped draft this certification along all of that and those 
things.
    So if you look at creative approaches and go back to these 
people, and some of them are you hop to when you have got 
somebody that is hot to trot like Fujimori or someone like 
that, and the timing is right, and Hugo Bonnsar is a good old 
friend of mine. He would love to have something that would do 
away with that and make his bananas bloom or something. So we 
need to look at some creative agricultural production methods.
    The other one that scares me is poppy production. And when 
we were down last year, and they were just down recently this 
year, we heard there are 10,000 hectares of poppies now being 
produced. And if you are familiar with Colombia, it is the 
flower growing capital of the world. In fact, it looks like a 
flower production center from almost anywhere you fly over it. 
Tremendous capability of producing cheap heroin, which is now 
flooding the streets. So poppy is another area. And I am not 
sure that we have done enough there. And the Mexican heroin is 
now becoming a significant problem.
    So maybe those two, targeting in a bit on some more 
technology----
    Mr. Brandenstein. I would be more than pleased to come back 
to you or to the committee in general with some options to 
pursue in this area.
    Mr. Mica. Well, obviously we don't have all the answers. 
And we appreciate your----
    Mr. Brandenstein. I will provide some more current 
information than I have at my fingertips right now.
    Mr. Mica. We just have some suggestions from looking at it 
and observing it over the years and again from our legislative 
perspective.
    Is there anything legislatively standing in your way either 
for technology development, for deployment, for research, that 
anyone can mention?
    Mr. Brandenstein. Well, I think I'm the one that has to say 
something about that. Because earlier in this deliberation, 
this committee hearing, I believe you might have been out of 
the room, the chairman was concerned about whether we actually 
had the authority to use the appropriated budget that Congress 
gave us each year since 1992. And I would like only to comment 
that I firmly believe we have been able to do this using the 
method that we have, which was to operate exactly the way ARPA 
operated for 25 years, the Department's Advanced Research 
Projects Agency, spent a budget of $600 million a year without 
a contracting office. Their appropriated funds were sent to a 
technical and contracting agent, which is exactly what I do. 
And they are not program managers in the sense that we have the 
technical oversight because I help select the projects and try 
to monitor the technical performance, but the technical 
workings of the project are being done by a contractor. And the 
overseer at the everyday level is one of the lead agencies of 
the 21 agencies that we work with and coordinate our activity 
through the--through CTAC. So if there's additional legislation 
to clarify that, because I think it is--I thought from the 
very, and I still feel, that from the very beginning it was 
important for CTAC to have a budget because it gives us a voice 
at the table. It makes us able to be current and to do the 
prototype developments where there are holes in the plans of 
the other agencies. And many of these holes are because the 
need is greater than one single agency.
    And nobody likes to pay someone else's bill. And the need 
for testing is a function that transcends the agencies. And 
somebody has to do this. And that was--that's essentially how 
we form up a program through the S&T panel--S&T Committee. And 
we have to put the money someplace.
    Mr. Mica. Well, we are not a legislative committee and we 
are not an appropriations committee. We are investigations and 
oversight. We want to make certain that the money is properly 
expended, that if we have administrative costs, that they are 
sufficient but not excessive, and that if we have 21 agencies 
involved in a project, that there isn't duplication, that in 
fact there is coordination and the best utilization of taxpayer 
moneys.
    And if we are spending $15 to $18 million in your area, and 
it could be spent somewhere else, that is our job to sort 
through that. And we are here today to question you about how 
we are proceeding on this and then to review the longer term 
plan that has been proposed.
    So I want to tell you that I appreciate your coming and 
testifying. I welcome and solicit your additional comments 
either for the record formally or informally. Sometimes you 
don't want to put some comments in writing. But we are here 
only to get the job done.
    Again, it is not a partisan issue. It is an issue that we 
have 2 million of our fellow Americans, 70 percent of them are 
in prisons and jails, because of drugs. We have the latest 
statistics, I think, being released even this week, that the 
alarming rate of use by our young people, even with more 
education dollars--we are spending one six-hundredth I believe 
of our budget we spend on education and treatment on the 
development of counterdrug technology. And we want to make sure 
that that is properly expended.
    If you need more money, if you need double your budget and 
it would help, I am the biggest fiscal conservative next to 
just one or two Members of Congress, and I will be glad to 
appropriate, find the funds you need to do your job, whatever, 
as long as we have something to show for it.
    So that is why we are all here today. We appreciate your 
being here, your testimony, and your future cooperation to make 
this thing work. So if you will let us know.
    There being no further business to come before the 
subcommittee, I will also ask unanimous consent that the record 
be left open for 2 weeks for additional submissions.
    Without objection, so ordered.
    I thank you, gentlemen. I thank others who are interested 
in being with us again on this important subject, and we look 
forward, as I said, to working with you in the future.
    Again, no further business before the National Security, 
International Affairs, and Criminal Justice Subcommittee, this 
meeting is adjourned.
    [Whereupon, at 4:18 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
